No. 19-1070

In the
Supreme Court of the United States

JEFFREY ALAN OLSON,
Petitioner
v.
PENNSYLVANIA,
Respondent

On Petition for Writ of Certiorari
to the Supreme Court of Pennsylvania

CERTIFICATE OF SERVICE
I certify that I served the Respondent's Brief in Opposition on counsel for the petitioner
on May 1, 2020 by electronic mail service, such form of service having been authorized by
mutual agreement of counsel. I declare under penalty of perjury that the foregoing is true and
correct.
Respectfully submitted,
/s/
HUGH J. BURNS, JR.
Senior Deputy Attorney General
(Counsel of Record)
1600 Arch Street
Philadelphia, PA 19103
(484) 390-5143
hbums@attorneygeneral.gov

